CERTIFICATE OF SERVICE
NO. 20-1562
Faye Strain, as Guardian of Thomas Benjamin Pratt
Petitioner,
v.
Vic Regalado, in His Official Capacity; Armor Correctional Health Services, Inc.;
Curtis Mcelroy, D.O.; Patricia Deane, LPN; Kathy Loehr, LPC
Respondents.
__________
STATE OF MASSACHUSETTS )
COUNTY OF NORFOLK
) SS.:
Being duly sworn, I depose and say under penalty of perjury:
1. That I am over the age of 18 years and am not a party to this action. I am an employee of
the Supreme Court Press, the preparer of the document, with mailing address at 1089 Commonwealth
Avenue, Suite 283, Boston, MA 02215.
2. On the undersigned date, I served the parties in the above captioned matter with the
VIC REGALADO BRIEF IN OPPOSITION, by mailing three (3) true and correct copies of the same by Fedex
2-Day, prepaid for delivery to the following addresses.
Robert M. Blakemore
Smolen, Smolen & Roytman, PLLC
701 S. Cincinnati Ave.
Tulsa, OK 74119-1030
(918) 585-2667
bobblakemore@ssrok.com
Counsel for Faye Strain as Guardian of
Thomas Benjamin Pratt

Sean Patrick Snider
Johnson Hanan Vosler Hawthorne & Snider
9801 North Broadway Extension
Oklahoma City, OK 73114
(405) 232-6100
ssnider@johnsonhanan.com
Counsel for Armor Correctional Health Service, Inc.;
Curtis McElroy, D.O.; Patricia Deane, L.P.N.; and
Kathy Loehr, L.P.C.

Dan Abramovich
July 12, 2021

SCP Tracking: Fortney-2617 E. 21 Street-Cover Orange

